Rene L. Valladares
Federal Public Defender
District of Nevada

Lori C. Teicher
First Assistant
411 E. Bonneville Ave.
Suite #250
Las Vegas, NV 89101
Tel: 702-388-6577

Amelia L. Bizzaro
Assistant Federal Public Defender

May 26, 2020
Scott S. Harris, Clerk
United States Supreme Court
1 First Street, NE
Washington, DC 20543
Re:

Renee Baker, Warden, et al., v. Jeff N. Rose
Case No: 19-1255

Dear Mr. Harris:
I represent Jeff N. Rose and am a member of the Bar of this Court. Pursuant
to Rule 30.4, I am writing on Mr. Rose’s behalf to request a 30-day extension until
July 1, 2020 to file a Brief in Opposition in his case. Warden Renee Baker’s
attorneys do not oppose this request.
Baker filed her petition for writ of certiorari on April 24, 2020, in line with
this Court’s Administrative Order, which extended the time for filing petitions due
to the novel coronavirus. Mr. Rose intends to file a brief in opposition, as permitted
by Rule 15. His brief is due June 1, 2020. See Rule 15.3.
I request additional time to prepare Mr. Rose’s brief in opposition. I have
been working remotely since March 16, 2020, and my ability to timely file Mr.
Rose’s brief has been limited by challenges created by the coronavirus. In addition
to my case-related responsibilities, I am responsible for managing the Non-Capital
Habeas Unit’s legal assistants, investigators, and paralegals. These duties have
taken up more of my time due to the challenges inherent in working remotely.
Additionally, technological challenges cause tasks to take longer than usual.
Beginning June 15, 2020, I am scheduled to work from the office once a week. The
ability to be in the office, even for one day a week, will increase my productivity.
My responsibilities in other non-capital cases have also played a role in
seeking this extension. This month alone, I have filed a protective § 2254 petition in

federal district court,1 a motion for certificate of appealability in the Ninth Circuit,2
an opening brief in the Nevada Supreme Court,3 overseen the drafting and filing of
two other opening briefs in the Nevada Supreme Court,4 filed an open records
lawsuit against the Nevada Department of Corrections related to the spread of the
coronavirus in Nevada prisons,5 and helped train a lawyer new to non-capital
habeas work.
Mr. Rose is not incarcerated at this time. On April 9, 2020, the Ninth Circuit
granted Mr. Rose’s emergency motion for release on bond pending appeal. At a bond
hearing in the district court on April 13, 2020, the district court imposed conditions,
and he was released.
For these reasons, I respectfully ask for a 30-day extension to file Mr. Rose’s
Brief in Opposition.
I served a copy of this letter on Baker’s attorneys by e-mailing it to all of her
attorneys on May 27, 2020. In addition, a copy of the letter was mailed to counsel of
record, Heidi Perry Stern, Office of the Nevada Attorney General, 555 E.
Washington Ave., Suite 3900, Las Vegas, NV 89101.
Sincerely,
Amelia L. Bizzaro
Assistant Federal Public Defender
c:

Mr. Jeff Rose (by e-mail)
Atty. Heidi Perry Stern (by e-mail and U.S. mail)
Atty. Jeffrey M. Conner (by e-mail)
Atty. Charles Finlayson (by e-mail)

Andre King-Hardiman v. Gittere, et al., Case No. 3:19-cv-00484-MMD-WGC (D.
Nev), ECF No. 19 (filed May 20, 2020).
2 Jacob Smith v. Isidro Baca, et al., Ninth Circuit Case No. 20-15278, Dkt. 6 (filed
May 26, 2020).
3 Hector Jardine v. Brian E. Williams, et al., Nevada Supreme Court Case No.
80385 (filed May 13, 2020).
4 Patrick Wilcock v. Jo Gentry, et al., Nevada Supreme Court Case No. 80172 (filed
May 7, 2020); Donald McCallister v. Brian E. Williams, et al., Nevada Supreme
Court Case No. 80402 (filed May 14, 2020)
5 Monique Bork v. Charles Daniels, et al., Fist Judicial District (NV) Case No. 20OC-00074 (filed May 7, 2020).
1

2

